=
|

@OCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
Petitioner,

Vv.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,

v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3 Ist day of October, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE FOUNDATION FOR MORAL
LAW IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
MATTHEW J. CLARK
FOUNDATION FOR MORAL LAW
One Dexter Avenue
Montgomery, AL 36104
matt@morallaw.org
334-262-1245

Counsel for Amicus Curiae

Subscribed and sworn to before me this 3 Ist day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . Li ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38959
SERVICE LIST

Counsel of Record for Little Sisters of the Poor Saint Peter and Paul Home
Mark Leonard Rienzi

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

202-349-7208

Counsel of Record for Commonwealth of Pennsylvania et al.
Michael J. Fischer

Pennsylvania Office of Attorney General

1600 Arch St.

Suite 300

Philadelphia, PA 19103

mfischer@attorneygeneral.gov

215-560-2171

Counsel of Record for Donald J. Trump et al.
Noel J. Francisco

Solicitor General

United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

202-514-2217
